                                 Department of Energy
                                     Washington, DC 20585

                                       November 6, 2000


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 Letter Report on Security Incident at Technical Area 18,
                         Los Alamos National Laboratory, INS-L-01-02

In October 2000, information was provided to the Office of Inspector General concerning
a security incident at Technical Area 18 (TA-18), Los Alamos National Laboratory
(LANL). On September 28, 2000, at 13:48 hours Mountain Time Zone (MTZ), an alarm
was activated on a vault which contains a nuclear critical mass assembly machine. It was
discovered that the locking device on the reactor vault had failed, preventing the vault
door from being properly secured at the conclusion of a radiological experiment the
previous day, September 27, 2000. Based on this information, we initiated an inspection
of this matter. The purpose of this letter report is to advise you of the results of our
inspection.

The objectives of our inspection were to determine if: (1) there was a loss, compromise,
or unauthorized disclosure of classified information or material; (2) LANL followed all
operating and security procedures with regard to the reactor vault; and (3) the incident
was reported in accordance with Department of Energy requirements. As part of our
inspection, we inspected the location where the incident occurred, witnessed a re-creation
of the incident, and interviewed LANL and TA-18 management and security officials,
reactor operators, and Protective Force personnel. We also reviewed TA-18 procedures
for reactor operations and relevant Protective Force procedures (“POST ORDERS”). In
addition, we reviewed the Occurrence Report, the Report of Security Incident/Infraction,
and alarm records for TA-18.

Our inspection found no evidence of any loss, compromise, or unauthorized disclosure of
classified information or material. We found that at the conclusion of reactor operations
on September 27, 2000, the reactor was being returned to its vault when a power failure
occurred. The reactor was then placed in the vault and steps were initiated to lock the
vault through the use of manual procedures. The vault door was closed and the alarm
system was activated at 15:57 hours (MTZ). The facility containing the vault was then
secured. The alarm for the reactor vault remained in the “Secure Mode” until 13:48
hours (MTZ) on September 28, 2000, when operators restored the power and the vault
door was found to be unlocked. It was determined that the lock had not engaged the
previous day.




This report is a public version of a November 3, 2000, report on the same
subject, that may contain Unclassified Controlled Nuclear Information
(UCNI). This report does not contain UCNI.
Our inspection found that the LOS ALAMOS CRITICAL EXPERIMENTS FACILITY
OPERATING INSTRUCTIONS FOR THE [REACTOR] REMOTE RETRIEVAL
MECHANISM did not anticipate a condition where power would be lost to the
mechanism for closing and locking the vault door. As a result, these instructions did not
include any procedure for locking the vault door manually and assuring that the locking
mechanism was engaged. LANL immediately recognized this deficiency in their
operating procedures and has drafted a new procedure that addresses vault operations
during a power failure.

Our inspection also found that the actual procedures used by the Protective Force for
“Exiting” the facility where the reactor is located were not consistent with the “POST
ORDERS.” The “POST ORDERS” require the Protective Force to “ensure” that the
reactor vault is “locked and in the Secure Mode” prior to exiting. However, the
Protective Force did not “ensure” that the reactor vault was “locked” at the conclusion of
operations on September 27, 2000. We were told by members of the Protective Force
that the requirement in their “POST ORDERS” to “ensure” that the reactor vault was
“locked” was an error, and that Protective Force members never physically check this
vault to ensure that it is locked. We were told that the Protective Force was only
responsible for ensuring that the reactor vault alarm was in the “Secure Mode” prior to
exiting the facility, and that the “POST ORDERS” would be clarified accordingly.

In addition, our inspection found that TA-18 did not have a program of scheduled
inspections or preventive maintenance on the locking device for the reactor vault to
ensure that it was operating properly. We were told that this device was installed in
1994, and that the remote procedure for mechanically closing the reactor vault door may
have placed unusual stress on the lock, causing it to fail. However, the specific cause of
the lock failure was not determined at the time of our inspection, and a key element of the
locking device was not found when the lock was replaced on September 29, 2000. The
Report of Security Incident/Infraction only states “mechanical failure of the locking
mechanism (defective combination lock) . . . ,” but provides no information on the nature
of the defect.

Our inspection found that the incident was reported in accordance with Department of
Energy policies and procedures. Notification was timely and appropriate personnel both
within LANL and the Department were informed of the incident. However, we did note
that the conclusion on the “Root Cause” differed between the Occurrence Report and the
Report of Security Incident/Infraction. We were told by the LANL Occurrence
Investigator that the “Root Cause” identified in the Occurrence Report could be ignored.
He said that the category chosen, “Personnel Error,” was selected because it was the most
innocuous category they could pick. He said that in no way should the use of “Personnel
Error” in the Occurrence Report be interpreted to suggest that he concluded differently
from the Report of Security Incident/Infraction. He said that the Report of Security
Incident/Infraction was the more important document, and was referred to often in the
Occurrence Report.




                                             2
We believe that the issues identified during this inspection reflect a need for greater
attention to the operational and security processes that should be in place to ensure that
classified information or material is protected to the level intended. While this incident
did not result in any loss, compromise, or unauthorized disclosure of classified
information or material, we believe that operating, Protective Force, and maintenance
procedures need additional review and evaluation. It is of particular concern to us that
the “POST ORDERS” could contain specific requirements that were not being followed
as written. Even though the “POST ORDER” requirement for securing the reactor vault
was said to be in error, this condition raises the question of whether or not the actual
procedures used by the Protective Force are always consistent with their “POST
ORDERS.”

We also believe that there should be consistency in the “Root Cause” identified in the
Occurrence Report and the Report of Security Incident/Infraction. We understand that
there may be concerns with regard to revealing potentially classified information in the
Occurrence Report, but we believe that the Occurrence Reporting system offers “Causal
Factors” that more closely reflect the “Root Cause” in the Report of Security
Incident/Infraction. This condition needs to be addressed to assure that accurate
information is placed into the Occurrence Reporting and Processing System.

Based on the results of our inspection, we recommend that the Manager, Albuquerque
Operations Office:

1. Ensure that the new procedure that addresses the reactor operations during a power
   failure be reviewed and tested by appropriate Operations Office personnel to ensure
   that it prevents the opportunity for this type of incident to reoccur.

2. Ensure that appropriate Operations Office personnel review the Protective Force
   “POST ORDERS” for exiting the facility where the reactor vault is located, and
   determine if the intended clarification to these “POST ORDERS” is acceptable.

3. Determine if a program of scheduled inspections or preventive maintenance on the
   locking device for the reactor vault, or any other vault with a similar locking
   mechanism, is necessary to ensure its proper operation.

4. Ensure that the cause of the reactor vault lock failure is fully investigated and
   documented, and modify the “Root Cause” of this incident as appropriate.

5. Ensure that the “Root Cause” identified in the Occurrence Report is consistent with
   the Report of Security Incident/Infraction, and that accurate information is placed into
   the Occurrence Reporting and Processing System.

We recommend that the Under Secretary for Nuclear Security/Administrator for Nuclear
Security:

1. Review all facilities that secure classified information or material with locking
   mechanisms similar to the reactor vault to ensure that the operating procedures


                                              3
   address power failures, and to ensure that the locking mechanisms are in proper
   working order.

2. For all facilities that secure classified information or material, review the “POST
   ORDERS” for “Entering” and “Exiting” to ensure that they are appropriate and
   implemented at each site.

We appreciate the cooperation from LANL, Protective Force, and Department officials
during the course of this inspection.

This inspection was conducted in accordance with the “Quality Standards for
Inspections” issued by the President’s Council on Integrity and Efficiency.


cc: Deputy Secretary
    Under Secretary for Nuclear Security/Administrator for Nuclear Security
    Chief, Defense Nuclear Security
    Director, Office of Security and Emergency Operations




                                             4
